      Office of Inspector General
           Audit Report


 LESSONS LEARNED FROM ARRA COULD IMPROVE
THE FEDERAL HIGHWAY ADMINISTRATION’S USE OF
              FULL OVERSIGHT
            Federal Highway Administration

             Report Number: MH-2013-075
               Date Issued: May 7, 2013
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Lessons Learned From ARRA Could                                    Date:    May 7, 2013
           Improve FHWA’s Use of Full Oversight
           Federal Highway Administration
           Report Number MH-2013-075

  From:                                                                            Reply to
           Joseph W. Comé                                                          Attn. of:   JA-40
           Assistant Inspector General for
             Highway and Transit Audits

    To:    Federal Highway Administrator

           With the infusion of $27.5 billion in American Recovery and Reinvestment Act
           (ARRA) 1 funds for highway projects, the Federal Highway Administration
           (FHWA) had to meet Office of Management and Budget (OMB) requirements for
           enhanced oversight and increased accountability for recovery funds. To address
           these requirements, FHWA expanded its existing oversight process by performing
           ARRA programmatic and project reviews of States’ management of Federal funds,
           such as those performed by National Review Teams. Additionally, FHWA
           conducted full oversight reviews of about 1,200 of nearly 15,000 ARRA projects
           to ensure they received a comprehensive assessment and that States met all
           relevant Federal requirements. Under full oversight, FHWA retains review and
           approval responsibilities for project design, plans, specifications, estimates, right-
           of-way certification statements, contract awards, inspections and final acceptance.
           When projects are not designated for full oversight, these responsibilities are
           typically delegated to the States through Stewardship and Oversight Agreements.

           Given FHWA’s responsibility to provide effective stewardship and oversight of
           ARRA funds, we initiated this audit to (1) determine whether FHWA’s full
           oversight inspections detected instances of noncompliance with select Federal
           requirements and (2) assess whether FHWA’s oversight guidance adequately
           defines full oversight procedures needed to ensure a comprehensive review of
           projects during construction.

           1
               American Recovery and Reinvestment Act, Pub. L. No. 111-5 (2009).
                                                                                                                    2


To conduct our audit, we performed a detailed review of project activities to test
the effectiveness of FHWA’s full oversight on 9 randomly selected ARRA full
oversight projects out of 125 in Florida, Michigan, and Pennsylvania. The select
Federal requirements we reviewed were from the United States Code and the Code
of Federal Regulations related to progress payments, labor compliance and
disadvantaged business enterprise participation, change order and claims
management, quality control and quality assurance, and project closeout. To assess
FHWA’s oversight of progress payments made to contractors, we selected a
statistical sample of progress payment line item transactions made on the sampled
projects, which allowed us to project the total amount of unsupported progress
payments on 125 ARRA full oversight projects in these 3 States. We also
evaluated the full oversight inspection reports FHWA prepared on 15 projects—
the 9 projects noted above plus 6 other ARRA-funded full oversight projects. The
six projects were the highest funded ARRA projects located in Florida; Michigan;
New Jersey; Pennsylvania; Washington State; and Washington, DC. We also
evaluated applicable FHWA construction oversight and inspection guidance. We
conducted our work in accordance with generally accepted Government auditing
standards.

BACKGROUND
In the early stages of ARRA implementation, FHWA delegated authority to its
Division Offices to develop a comprehensive ARRA risk management plan to
minimize, monitor, and eliminate identified project risks. Although State
departments of transportation are primarily responsible for project supervision and
control of federally funded projects, FHWA routinely conducts program reviews
and implements full oversight inspections on selected projects when the
construction phase of work begins. These inspections are used to fulfill FHWA’s
construction program oversight responsibilities on both design-bid-build and
design-build contracts, 2 which use a variety of progress payment methods. 3
Division Offices identify the risk areas they consider important enough to be
inspected during full oversight, while individual engineers determine the level of
review to be performed and the amount of documentation needed.

According to FHWA guidance, the purpose of the resulting inspection reports is to
(1) provide permanent file evidence that inspections are being completed as
required by Federal regulations; (2) provide a basis for acceptance of completed

2
  A design-bid-build project separates the design contract from the construction contract, while a design-build project
consolidates the design and construction work into a single contract.
3
  Progress payments made on design-bid-build construction work are generally paid based on installation or delivery of
unit-priced contract items, such as the number of cubic yards of concrete. Progress payments made on design-build
construction work are generally paid based on a lump-sum contract which may include a payment schedule similar to a
unit-priced contract or may be paid using an estimate of the percentage of project completion.
                                                                                                                    3


work; (3) document field conditions, contractor performance, and the States’
management of projects; and (4) document FHWA’s role, observations, findings,
resolution of identified problems, claims, and any other topics of interest.

The Division Office engineer (also known as the area engineer, transportation
engineer, inspecting engineer, or highway engineer) is FHWA’s principal agent
involved in the full oversight of highway projects. FHWA provides elective but
not mandatory guidance to its engineers on planning, conducting, and reporting on
the results of project visits, and emphasizes the need for inspection reports to stand
on their own merit, so that report users can easily understand the scope and results
of inspections. 4

The recently enacted surface transportation authorization, 5 Moving Ahead for
Progress in the 21st Century Act (MAP-21), retains FHWA’s oversight
responsibility for projects designated as high risk; therefore, lessons learned from
FHWA’s full oversight of ARRA projects could be instructive going forward as
FHWA reassesses its oversight processes.

RESULTS IN BRIEF
While Florida, Michigan, and Pennsylvania generally complied with Federal
requirements for quality control and quality assurance, FHWA full oversight
inspections did not always detect instances of States’ noncompliance with other
Federal requirements. Specifically, FHWA Division Offices did not routinely
verify whether these States complied with some Federal requirements. For
example, we found that these States did not have adequate support for 28 of the
141 progress payment line item transactions randomly selected for review. Based
on this sample, we project that $125.6 million (about 12 percent) in ARRA
progress payments made to contractors in these three States were unsupported. 6
Adequate supporting documentation is important to ensure that contractors are
paid according to the work delivered and installed. Further, in Michigan and
Pennsylvania, we identified instances of noncompliance with Federal regulations
related to labor and disadvantaged business enterprise (DBE) participation, 7 as
well as change order justifications. For example, in Michigan, none of the three
projects we reviewed had documented evidence that the State conducted project


4
  This inspection report form is the primary means for communicating the results of project oversight. All information
gathered during inspections may be kept in the work papers and filed with the file copy of the report.
5
  Moving Ahead for Progress in the 21st Century, Pub. L. No. 112-141 (July 2012), § 1503.
6
  We estimate with 90-percent confidence that the amount of unsupported payments in our three-state universe is
$125.6 million or about 12 percent of a $1 billion total universe (+/-$30.7 million or 3 percent).
7
  Department of Transportation (DOT) DBE regulations require state and local transportation agencies that receive
DOT financial assistance to establish goals for the participation of DBEs.
                                                                                                                  4


reviews 8 to verify that the DBE firm was supervising and controlling the work
being performed, as required by Federal regulations.

FHWA guidance does not adequately define full oversight. Rather, FHWA allows
each of its Division Offices to determine the type, scope, and consistency of
project inspections and the extent of supervision needed. As a result, FHWA
Division Offices rarely prepared written plans to identify which construction
activities would be inspected, did not fully document oversight procedures
performed or justify why they excluded some Federal requirements and the related
risk areas from their review, and—contrary to FHWA guidance—had limited
evidence of supervisory review of inspection reports. In addition, FHWA guidance
did not establish a Headquarters or Directors of Field Services 9 (DFS) role to
assess the quality and scope of Division Office inspections. Without a more
defined approach with specified minimum procedures and a quality control
assessment of their inspection process, FHWA does not have assurance that
designating a project for full oversight results in a comprehensive review of
project-specific risk areas to ensure compliance with Federal requirements.

We are making recommendations to improve FHWA’s use of full oversight for
current and future Federal-aid projects.

FHWA’S FULL OVERSIGHT INSPECTIONS DID NOT ALWAYS
DETECT INSTANCES OF STATES’ NONCOMPLIANCE WITH
FEDERAL REQUIREMENTS
While Florida, Michigan, and Pennsylvania generally complied with Federal
requirements for quality control and quality assurance, FHWA Division Offices’
full oversight inspections did not routinely verify whether ARRA projects we
reviewed complied with other Federal requirements. As a result, FHWA
inspections did not detect some cases of noncompliance. Our review of five key
project activities (see table 1), found that the most prevalent noncompliance issue
was related to progress payments, which States pay to contractors for work
completed over the life of a project. Using a statistical sample, we found that 28 of
141 progress payment line item transactions randomly selected had incomplete



8
  Per 49 CFR § 26.55, a DBE performs a commercially useful function when it is responsible for execution of the work
of the contract and is carrying out its responsibilities by actually performing, managing, and supervising the work
involved.
9
  FHWA’s DFS serve as an extension of FHWA’s Office of the Executive Director, and provide executive oversight to
the Federal-Aid Division Offices in their assigned geographic area. The DFS assure that State Division Offices
implement DOT and FHWA strategic policies, plan to expedite transportation project delivery, and build and enhance
partnerships and coordination efforts with other Federal, State, and local agencies.
                                                                                                                    5


records needed to support payments made to contractors. 10 Based on this sample, 11
we project that $125.6 million (about 12 percent) in ARRA progress payments
made to contractors in these three States were unsupported. In Michigan and
Pennsylvania, we also identified instances of noncompliance with Federal
regulations related to labor compliance and DBE participation, 12 as well as change
order justifications.

Table 1. Results of Five Full Oversight Project Activities
Reviewed a
                                                                                   Number of Projects
                                                                                      Reviewed With
                                                     Number of Projects                 Instances of
Project Activities Reviewed                                  Reviewed                Noncompliance
Progress Payments                                                            9                            7
Labor Compliance/DBE                                                         9                            4
Change Order/Claims                                                          9                            3
Quality Control/Quality Assurance                                            9                            0
Project Closeout                                                             2                            0
a
 The five project elements included in our review represent a select portion of all the review activities that can be
conducted by FHWA engineers during site inspections.
Source: OIG analysis

FHWA’s Full Oversight Did Not Ensure That Progress Payments Were
Fully Supported
In seven of the nine projects we reviewed in Florida, Michigan, and Pennsylvania,
we determined that FHWA did not routinely ensure that States made ARRA
progress payments with all required supporting documentation. Specifically, we
found that the files for these 7 projects had incomplete records or lacked support
for quantity calculations supporting 28 of 141 progress payment line item
transactions sampled. Adequate supporting documentation is important to ensure
that contractors are not paid before work is completed. Additionally, project funds
provided in advance may not be reimbursed should the contractor default during
project construction.


10
   These progress payments (generally on a biweekly or monthly basis) are paid to contractors for contract items
delivered and installed during construction. Before payment, the State must verify delivery and installation of the
quantities billed, by comparing the quantities to the inspector field diary entries or other engineering calculations.
11
   We statistically sampled at least 14 progress payment line item transactions in each of the 9 projects we reviewed.
12
   One labor compliance issue relates to 23 CFR § 113 “Davis Bacon Act,” all laborers and mechanics employed by
contractors or subcontractors on the construction work performed on Federal-aid highways shall be paid wages at rates
not less than those prevailing on the same type of work on similar construction in the immediate locality.
                                                                                                                     6


For progress payments, FHWA’s full oversight role is to ensure that States’
payments accurately reflected the completed work and that States collected or
prepared the necessary documentation to confirm that materials were delivered
and installed. Such documentation includes engineering calculations, field diary
entries, or delivery tickets and is kept in the project files to support progress
payments made to the contractors.

All seven of the projects with unsupported payments used a unit-priced payment
method, which requires detailed documentation to support progress payments
made to contractors. For four of these projects, FHWA told us that States did not
have to provide precise progress payment support because they were design-build
projects based on lump-sum contract prices, and this method generally requires
less rigorous support for progress payments. 13 However, because the States
voluntarily opted to use the more precise unit-price method on these projects—
which requires actual measurements of materials delivered and installed (e.g.,
cubic yards of concrete)—when calculating progress payments, FHWA should
have ensured that States provided the appropriate support. Examples of
unsupported State progress payments made to contractors using the unit-price
method include the following:

     • For 1 project in Pennsylvania, the State did not have sufficient documentation
       to support 10 of 14 line item transactions we reviewed. In numerous instances,
       the State did not document its measurements or calculations to support the
       10 line item transactions and could not reconstruct how it calculated the
       amount paid.

     • For one project in Florida, FHWA’s engineers did not detect instances in
       which the State was unable to support some payments made to the contractor.
       On this contract, costs for 7 of the 14 line item transactions we reviewed were
       not adequately supported. For example, the State paid for excavation work but
       could not justify the amount of excavation completed by the contractor when
       compared to the project records, such as daily diaries.

     • For another project in Florida, the Division Office engineer stated that the
       supporting documentation for unit-price pay items 14 had been reviewed, but
       not the calculations. Further, the inspection reports did not provide any details
       to support the Division Office engineer’s assessment.



13
   When using the unit-price method, the State pays a fixed unit price for each completed unit of work, which can be
measured in, cubic yards, liner feet, or other units of measure.
14
   In this design-build project, the State used the unit-price method to measure payments, where the contractor is paid
based on planned quantities of unit-priced items, which are measured as items are delivered (e.g., cubic yards).
                                                                                                               7


Based on these findings, we project that $125.6 million in unsupported 15 ARRA
progress payments were made in Florida, Michigan, and Pennsylvania—about
12 percent of the $1 billion in total project payments. In addition, we found that
Florida was not able to support an additional $732,144 in progress payments made
on a non-ARRA pay item. Specifically, the State made payments for 2,179 of
2,881 truckloads of embankment material that were not supported with appropriate
documentation. 16

FHWA Full Oversight Projects Showed Instances of Noncompliance
with Labor, DBE, and Change Order Requirements
FHWA did not ensure that States responsible for four of nine projects included in
our sample (three in Michigan and one in Pennsylvania) fully evaluated labor
compliance and DBE participation. Also, FHWA did not ensure that States
responsible for three of nine projects (one in Michigan and two in
Pennsylvania) complied with change order requirements, as required by Federal
regulations. Specifically:

Labor Compliance. FHWA did not detect instances of noncompliance with labor
requirements on projects we reviewed in Pennsylvania and Michigan. State project
managers did not routinely verify that workers assigned to Federal projects
received prevailing wages in accordance with the labor compliance requirements
in the Davis Bacon Act. 17 For example, in Michigan, two subcontractors’ certified
payrolls 18 were not on file for one project, nor did the records show that required
worker interviews were conducted to confirm the data included in the certified
payrolls. This left the project office with no available evidence to show that the
prevailing wages were verified for these subcontractors. FHWA’s Division Office
engineer did not physically check certified payroll documentation but instead
relied on interviews with the State’s project management team.

DBE Participation. FHWA did not detect instances of noncompliance in projects
we reviewed in Michigan and Pennsylvania because Division Office engineers did
not routinely verify the States’ actions to assure projects’ compliance with DBE
requirements. For the three projects we reviewed in Michigan, we found no
evidence that the State completed required commercially useful function reviews
to verify the DBE was supervising and controlling the work being performed and
using its own employees and equipment to complete the work. For two of three

15
   Unsupported costs include the amounts that were not supported by engineering calculations, inspector diaries,
delivery tickets or other project documents that are routinely prepared by the State engineer or submitted by the
contractor.
16
   The unsupported amount of $732,144 was part of non-ARRA funding, and as such, was not included in our
$125.6 million projection.
17
   40 U.S.C. 3141 et seq.
18
   Certified payrolls are required to verify the payment of prevailing wages.
                                                                                                                    8


Michigan projects, FHWA’s engineers did not review DBE compliance.
According to one FHWA engineer, DBE reviews were not a Division identified
focus for full oversight inspections that year; therefore, the DBE review was not
included in the inspection process. Finally, on one project in Pennsylvania, the
State paid over $10,700 to a DBE trucking firm without any certification to prove
that work was performed for the payroll submissions provided.

Change Order Requirements. FHWA did not detect instances of noncompliance
with change order requirements on projects we reviewed in Pennsylvania and
Michigan. In Pennsylvania, the State did not adequately document a cost analysis
of negotiated change orders on two projects, as required by Federal regulations. 19
For example, we identified a negotiated change order for an additional digital
message sign, but the change order lacked a documented cost analysis to support
the $285,182 paid with Federal funds. The State project manager informed us that
a State-hired consultant provided only a verbal statement that the price was
reasonable. In addition, the FHWA engineer assigned to this project did not
document any reviews of the cost analysis or other components of the change
order before approving it. In Michigan, the State did not sufficiently validate the
time and material cost reimbursed to contractors as required by Federal
regulations. For example, the State could not provide field records or other
documentation to support the reimbursed costs, and the FHWA engineer assigned
to the project did not examine the project files related to this change order.

FHWA’S GUIDANCE DOES NOT ADEQUATELY DEFINE FULL
OVERSIGHT
FHWA identified full oversight as one of the tools it would use for increased
oversight of ARRA projects. However, FHWA guidance did not adequately define
full oversight by identifying mandatory requirements and the minimum inspection
procedures that must be performed. As a result, FHWA Division Office engineers
rarely prepared written project-specific inspection plans, did not fully document
oversight procedures performed or justify why they excluded some Federal
requirements and the related risk areas from their reviews. Furthermore, Division
Office supervisors could only demonstrate that they had a limited role in
supervising planning decisions and in overseeing the preparation and completion
of inspection reports. In addition, FHWA guidance does not establish a
Headquarters or DFS role to assess the quality of Division Office inspections.



19
   Per 23 CFR § 635, the State Highway Administration shall perform and adequately document a cost analysis of each
negotiated contract change or negotiated extra work order. The method and degree of the cost analysis shall be subject
to the approval of the Division Administrator.
                                                                                                             9


FHWA Division Offices Rarely Prepared Written Project-Specific
Inspection Plans
FHWA Division Offices rarely prepared written project-specific plans before
beginning required inspections on the full oversight projects we reviewed. FHWA
guidance only states that inspection plans “should” be prepared and in written
form and then further states that the inspection plan may vary from a very detailed
plan to a “simple mental image.” Due to the lack of specific requirements, five of
the six Division Offices we reviewed did not have written plans that formally
identified the activities or the project-specific risks engineers planned to inspect
before they began the inspections. Additionally, the role of engineering
supervisors in those Division Offices was limited because they did not approve the
engineers’ review plans prior to inspections. For example, in Florida, one Division
Office supervisor’s involvement in planning was limited to setting the total
number of inspections that engineers must complete rather than setting
requirements for the project-specific risks that the engineers should review (e.g.,
DBE and labor compliance).

Despite the emphasis on enhanced oversight under ARRA, only one Division
Office in our review—Washington State—had a project with documented plans
for construction inspections. These plans provided assurance that inspections were
sufficiently scoped to ensure that all appropriate State project activities were
inspected during the highway project’s construction period. 20

Because risks vary by State and by individual project, it is reasonable to expect
that Division Offices would choose to conduct only certain inspection procedures
on full oversight projects. However, without more formal planning, FHWA
managers do not have assurance that their engineers will conduct inspections that
address key project-specific risks or Division Office priorities.

FHWA’s Division Office Engineers Did Not Fully Document Oversight
Procedures Performed or Reasons for Excluding Oversight of Some
Federal Requirements
FHWA Division Office engineers in the States we reviewed did not fully
document the project oversight activities they performed during construction or
their reasons for not reviewing States’ compliance with some Federal
requirements, such as progress payment documentation. Therefore, the inspection
reports and other supporting documents did not provide permanent file evidence of
the project activities reviewed or the conclusions drawn, which are called for in
FHWA guidance.

20
     The review cycle usually starts with the pre-construction meeting and ends with the final inspection.
                                                                                          10


In many inspections we reviewed, the engineers used checklists and report
templates to assess States’ compliance with relevant Federal requirements.
However, many engineers only included checkmarks or brief narratives to show
completion of an inspection procedure, or provided limited information to
establish which project documents they reviewed to support their conclusions.
FHWA guidance advises Division Office engineers to make full use of project
documentation and source records such as daily diaries when monitoring projects
and identifying potential areas of risk. 21 Without this information, the Division is
not assured that its engineers’ independent decisions are based on potential risks
associated with specific projects. For example:

     • In Pennsylvania, a Division Office engineer did not fully document review
       procedures reported as completed. For nine of the reports we reviewed, two
       included an on-site construction or documentation review. However, the
       engineer did not fully document what specific activities were addressed during
       these reviews. For instance, the engineer asserted that a review of required
       certified payrolls was made but provided no documentation to support what
       was reviewed, such as dates, payments, or employee records. For the
       remaining seven reports, the engineer reported only attendance at project
       progress meetings but provided no evidence of any substantial review of
       project activities or State documents.

     • In Florida, Pennsylvania, and Michigan, the Division Offices did not always
       justify excluding progress payments and DBE participation even though
       FHWA identified these items as areas to be considered for review. For
       instance, a Florida Division Office engineer stated that progress payments were
       not reviewed because they were not considered a priority. Likewise, a
       Pennsylvania Division Office engineer stated that progress payments would be
       reviewed only if State officials independently elevated an issue to the engineer.
       Lastly, a Michigan Division Office engineer did not perform a review that
       included the DBE requirement because, according to the engineer, DBEs were
       not considered a focus area.

     • In Florida, FHWA guidance identified labor compliance activities as an area
       for review—and Florida Division Office oversight guidance describes payrolls,
       a labor compliance activity, as a core program requirement—but its engineers
       did not always review this area for compliance with Federal requirements and
       did not justify their reason for excluding it.




21
     FHWA Construction Program Management and Inspection Guide, August 2004 (page 1-1).
                                                                                                                   11


FHWA’s Division Offices Provided Limited Evidence of Supervisory
Review of Inspection Reports
FHWA guidance recommends that at least one level of management review of
inspection reports should occur before the reports are released to a State. However,
Division Office supervisors in Florida, Michigan, and Pennsylvania for the nine
projects we reviewed could not demonstrate how or what they reviewed, even
though they stated that they were involved in the review process. Consequently,
Division Office supervisors allowed Division Office engineers to issue inspection
reports that did not stand on their own merit, contrary to FHWA guidance. For
example, in Michigan, one Division Office engineer made an overarching “no
issues” statement regarding prevailing wages in an inspection report; however, the
engineer provided no documentation to support whether records were examined to
support such a claim, such as contractor and subcontractor certified payroll
submissions, and wage rate interviews. Despite these deficiencies, the supervisor
allowed this report to be issued but was unable to demonstrate how the report was
reviewed. Unless supervisors complete adequate reviews, they are not able to
evaluate the completeness of engineers’ inspections or identify deficiencies in
inspection reports before they are issued to a State.

FHWA Guidance Does Not Establish a Headquarters or DFS Role To
Assess the Quality of Inspections
FHWA guidance does not address the Headquarters and DFS roles in overseeing
Division Office inspections. Further, DFS considers the supervision of project
oversight to be a responsibility of the Division Administrator. As a result, neither
FHWA Headquarters nor DFS performed oversight of the quality and scope of the
Division Office inspection processes and reports. 22 FHWA oversight procedures
do not specify the following:

     • A method for ensuring that projects are appropriately inspected in line with
       FHWA-wide priorities and across all risk areas, such as adequate support for
       progress payments and compliance with DBE requirements.

     • Procedures for selective sampling and review of inspection reports—outside of
       the Division Office—to ensure they are conducted consistent with FHWA
       guidance, which stipulates that reports are supposed to be able to stand on their
       own merit. 23


22
   Per FHWA’s Construction Management and Inspection Guide, August 2004 (page 3-5), there are several types of
construction inspections that vary depending on the time at which it is conducted, the objective of the inspection, and
the FHWA-State stewardship agreement criteria.
23
   FHWA Construction Program Management and Inspection Guide, August 2004 (page 4-5).
                                                                               12


Without guidance establishing enhanced quality controls for the Division
inspection process, FHWA does not have assurance that designating a project as
full oversight actually increases the level of compliance with Federal
requirements. Nor does it provide the scrutiny required for ARRA funding or for
future projects designated as high risk. In our opinion, enhanced tools for
monitoring inspections can be put in place while still maintaining needed
flexibility across the full oversight projects overseen by the Division offices.

CONCLUSION
FHWA is responsible for the effective stewardship and oversight of $27.5 billion
in ARRA funds and approximately $34 billion in annual Federal-aid funding
provided to States in 2009. Full oversight is a key tool that FHWA has designed to
safeguard project delivery on selected ARRA and non-ARRA projects. While
ARRA is expiring, the lessons learned from our review of ARRA full oversight as
outlined in this report could help FHWA enhance construction inspections on
other Federal-aid projects for which it will retain prime responsibility through
MAP-21. These improvements would help FHWA use its limited resources in the
most efficient and effective manner possible in its future oversight of MAP-21
high risk projects.

RECOMMENDATIONS
We recommend that the Federal Highway Administrator:

1. Establish minimum oversight guidance and procedures that must be performed
   to complete oversight inspections for the current full oversight program or any
   successor programs. The guidance should include provisions to:

      a. develop formal inspection plans, which consider FHWA-wide priorities
         and project-specific risks;

      b. document evidence of procedures performed;

      c. formally justify when a project activity is excluded from review based
         upon individual project risks; and

      d. establish the levels of documentation required for each project report
         and file.

2. Require Division Office supervisors to:

      a. work with the Division Office engineers to develop project-specific
         review plans, which address key risks, and
                                                                                 13


      b. review the resulting inspection reports.

3. Establish quality control review procedures—based on a select sample of
   inspection reports at either the FHWA Headquarters or DFS level—to ensure
   that Division Office supervisors conduct appropriate quality reviews of
   project-based inspection reports.

4. Require that the Florida, Michigan, and Pennsylvania Division Offices sample
   additional ARRA projects to further mitigate other similar instances of
   noncompliance with Federal requirements. In particular, ensure that the types
   of compliance issues similar to those used to project the $125.6 million in
   unsupported progress payments are mitigated.

AGENCY COMMENTS AND OIG RESPONSE
We provided FHWA with our draft report on January 17, 2013, and received its
response on April 5, 2013. For recommendations 1, 2, and 3, FHWA partially
concurred and cited its decision to discontinue use of full oversight and develop an
alternative oversight approach to address our recommendations and new MAP-21
requirements. FHWA’s planned actions to be implemented by June 1, 2013, meet
the intent of recommendations 1, 2, and 3. FHWA has committed to issuing a set
of review guides to the division offices that clarify inspection and documentation
requirements. It will also require division offices to use a risk-based approach in
identifying areas that need enhanced review and randomly select and review
projects. The agency also plans to establish a quality control process that will
include spot checks requiring documentation of the individual conducting them as
well as a national Program Management Improvement team that will review
division offices’ reports. For recommendation 4, FHWA concurred and provided
an acceptable plan of action to be completed by September 30, 2013. We consider
all four recommendations resolved but open pending completion of the planned
actions. FHWA’s complete response is included as an appendix to this report.

ACTIONS REQUIRED
FHWA’s planned actions for all four recommendations are responsive. In
accordance with the follow-up provisions in Department of Transportation Order
8000.1C, we request that FHWA provide us with information demonstrating
completion of its planned actions within 10 days of completion. All four
recommendations will remain resolved but open pending receipt of this
information. If you have any questions concerning this report, please call me at
(202) 366–5630 or Anthony Zakel, Program Director, at (202) 366–0202.

                                         #

cc:    DOT Audit Liaison (M–1)
                                                                                14


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from June 2011 through January 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine whether FHWA’s full oversight inspections detected instances of
noncompliance with selected Federal requirements, we selected a four-stage
statistical sample with probability proportional to expended amounts dated
February 16, 2011, with replacement as follows:

 • For Stage 1 we selected 3 out of 53 states and territories (Florida, Michigan,
   and Pennsylvania).

 • For Stage 2 we selected 3 projects from each of these 3 states for a total of 9
   out of 125 full oversight ARRA projects.

 • For Stage 3, we selected a total of 80 progress payment line items from the
   9 projects.

 • For Stage 4, we selected a simple random sample of 2 line item transactions
   from each of the 80 progress payment line items unless only 1 transaction
   existed, for a total of 141 progress payment line item transactions.

On these nine projects, we performed a detailed review of the States’ management
of Federal requirements. We also evaluated FHWA’s full oversight inspection
reports prepared on 15 projects—the 9 projects noted above plus 6 other ARRA-
funded full oversight projects. These six were the highest funded ARRA projects
located in Florida, Michigan, New Jersey, Pennsylvania, Washington State, and
Washington, DC. In each of the six Divisions we reviewed, we interviewed the
FHWA engineers responsible for overseeing the selected projects and their
supervisors. For the 9 projects subjected to a detailed review, we also interviewed
State project managers and staff, and obtained pertinent documentation related to
the projects.

Table 2 below lists the FHWA Division Offices and related States we reviewed.
See exhibit B for a list of projects we reviewed.




Exhibit A. Scope and Methodology
                                                                                     15


Table 2. ARRA Projects Selected for Review
                                        Projects OIG Selected
                                         for Review of States’     Projects OIG Selected
                                       Management of Federal     for Evaluation of FHWA
 Division Offices and Related States            Requirements          Inspection Reports
 Florida                                                    3                         4
 Michigan                                                   3                         4
 Pennsylvania                                               3                         4
 Washington, DC                                             0                         1
 New Jersey                                                 0                         1
 Washington State                                           0                         1
 Total                                                      9                        15

Source: OIG analysis

When conducting detailed reviews on the nine sampled projects, we evaluated
construction progress payments, labor compliance and DBE participation, change
orders and claims, quality control and quality assurance activities, and project
closeout.

  • For progress payment line items, we statistically sampled up to 14 line item
    transactions in each of the 9 projects. We examined available field records
    including the States’ resident inspector calculation sheets and daily diaries to
    establish that the amounts paid on materials delivered or installed were
    supported by engineer calculations or diary postings.

  • For construction change orders, labor compliance, DBE participation, and
    quality assurance, we requested the relevant records related to these Federal
    requirements. For example, we sampled up to four negotiated changes and/or
    time and material (T&M) for each project. We reviewed available field records
    for negotiated changes including contractors’ proposed change estimates and
    requested resident inspectors’ independent cost estimates and negotiation
    documents used to establish the final price. These documents provide some
    assurance that a fair price was negotiated. We validated the T&M change
    orders by reviewing the resident inspector’s daily diaries and calculations
    showing the final costs. We looked for evidence in the daily diaries
    documenting the labor hours expended and the equipment used to do the work.
    We also reviewed project documentation to determine whether appropriate
    wage and equipment rates were used in calculations. For labor compliance and
    DBE participation on the nine projects, we interviewed project staff and
    reviewed the certified payrolls submitted by contractors and subcontractors and
    the wage rate interviews conducted by project staff. We also determined


Exhibit A. Scope and Methodology
                                                                              16


   whether project staff was monitoring the DBE participation rate and
   conducting commercially useful function reviews. For quality control and
   quality assurance, we reviewed available field documents including material
   testing reports and logs, including any exception reports, and inquired as to
   subsequent resolutions. We also determined whether the project was following
   a quality assurance program prescribing testing frequencies.

To assess whether FHWA’s oversight guidance is fully defined and implemented
to ensure a comprehensive assessment of full oversight projects during
construction, we evaluated applicable FHWA construction oversight and
inspection guidance, including the Code of Federal Regulations and FHWA’s
Construction Program and Management and Inspection Guide and the Area
Engineer’s Manual.

We also interviewed FHWA Headquarters officials and the Directors of Field
Services to determine their level of oversight and management of the Division
Offices’ full oversight procedures on ARRA funded projects. We obtained
documentation from the Division Offices, including FHWA inspection reports
prepared on 15 full oversight projects and related project files. We reviewed the
inspection reports’ narratives to determine the procedures that FHWA’s engineers
used and to determine the level of review that these reports had received from
FHWA management. We interviewed each of the FHWA engineers associated
with the 15 projects to determine their procedures when conducting an inspection
and their supervisors to determine if reviews of the engineers work were
conducted.




Exhibit A. Scope and Methodology
                                                                                                          17




EXHIBIT B. PROJECTS SELECTED FOR REVIEW

                                                                                            Onsite Review
                                                                  Federal                   (OR) or
                                                                  Identification            Inspection Report
Project Name                             Location                 Number                    (IR)*
“Selmon”                                 Florida                  ARRA 279                  IR
“Okaloosa”                               Florida                  ARRA 001                  OR
“Lakeland”                               Florida                  ARRA 145B                 OR
“Miami”                                  Florida                  ARRA 134                  OR
“M-59 Crooks to Ryan”                    Michigan                 0963199-00                IR
“Lansing”                                Michigan                 ARRA 0919015              OR
“Port Huron”                             Michigan                 ARRA 0977044              OR
“Kalamazoo”                              Michigan                 ARRA 0903321              OR
“Girard Point Bridge”                    Pennsylvania             ARRA 86046                IR
“Manheim”                                Pennsylvania             ARRA 75766                OR
“Tobyhanna”                              Pennsylvania             ARRA 75822                OR
“Philadelphia, I-95 ITS”                 Pennsylvania             ARRA 86055                OR
“Route 52 Causeway”                      New Jersey               0007109-00                IR
“New York Ave Bridge”                    Washington, DC           ARRA-1108027              IR
“Braided Ramps”                          Washington State         4053858                   IR

*OR=Onsite review conducted and inspection reports evaluated; IR=Inspection reports evaluated.




Exhibit B. Pr ojects Selected for Review
                                                               18




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Anthony Zakel                           Program Director

Peter Babachicos                        Project Manager

John Hannon                             Senior Analyst

William Lovett                          Senior Auditor

Kristi-Jo Preston                       Senior Analyst

Aron Wedekind                           Engineer

Fritz Swartzbaugh                       Associate Counsel

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

Harriet E. Lambert                      Writer-Editor

Andrea Nossaman                         Senior Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                          19




   APPENDIX. AGENCY COMMENTS



                                             Memorandum

Subject: INFORMATION: Federal Highway                                   Date:     April 5, 2013
         Administration (FHWA) Response to
         Office of Inspector General (OIG) Draft
         Report on Full Oversight Projects
         Project No. 11U3008M000

 From: Victor M. Mendez                                                           In Reply Refer To:
       Administrator                                                                       HCFM-1

    To: Calvin L. Scovel III
        Inspector General (J-1)

         The FHWA uses systematic internal controls to examine highway project compliance
         with Federal requirements. While no system of internal controls will realistically
         detect all instances of non-compliance, the Agency uses a structured, comprehensive,
         and well-organized approach to mitigate non-compliance risk. Even with the process
         limitations discussed in the report, we note that the OIG found States it reviewed to be
         generally compliant with Federal requirements for quality control and quality
         assurance.

         The FHWA employed the “full oversight” approach as one of several ways to further
         enhance its oversight by targeting resources on projects in need of greater Federal
         attention and assistance. While not statutorily mandated, full oversight was intended
         to provide a resource-effective means to provide enhanced oversight on projects in a
         manner consistent with the sustained movement in statute of increasingly shared
         oversight responsibilities with the States. Based on our own analysis and consistent
         with information presented in the OIG’s draft report, we recognize the Agency’s use
         of full oversight has not been consistently implemented throughout the Agency. The
         FHWA is phasing out this “full oversight” approach and is developing a more
         comprehensive, risk-based oversight system.

         We recently launched an Agency-wide effort to provide a more risk-based oversight
         focus across the Agency. This effort will position the organization to implement the
         Moving Ahead for Progress in the 21st Century Act (MAP-21), which continues shared
         oversight responsibilities and introduces performance measures for key aspects of


   Appendix. Agency Comments
                                                                                      20


    surface transportation programs. The FHWA will implement those changes that are
    necessary to comply with new requirements and provide consistent, systematic, and
    comprehensive oversight across the Nation, while recognizing the unique and differing
    challenges among States. When fully developed, FHWA’s new stewardship and
    oversight approach will improve existing policies and processes, provide
    documentable oversight, and position the Agency to address new MAP-21
    requirements and performance measures.

    The new stewardship and oversight approach is intended to examine Agency priorities
    at both the national and local level. The FHWA’s risk management framework and
    risk assessment process are at the core of this new stewardship and oversight effort.
    The risk assessment process enables the Agency to identify corporate and unit risks
    and focus its efforts on areas that require additional stewardship and oversight.
    Further, FHWA will identify national project priorities and national program priorities
    that will result in a National Program Stewardship and Oversight Plan. Beyond these
    priorities at the national level, FHWA will also provide guidance for a more consistent
    identification of program and project priorities for Division Offices. Field units will
    employ a risk-based oversight approach to identify focus areas that require enhanced
    review or inspection according to program and project priorities.

    The Program Management Improvement (PMI) Team will provide a second layer of
    oversight to help achieve greater national consistency in implementation. It will
    implement mechanisms such as statistically oriented project sampling (or spot check
    program) and national program reviews to provide added quality assurance for the
    Federal-aid highway program (FAHP). The FHWA is evaluating input affecting all
    aspects of FAHP to ensure that the Agency effectively manages high-risk program
    areas in a resource constrained environment. Part of this effort is to assess and
    document performance of lower-risk program areas as well. The FHWA expects that
    the process to improve upon stewardship and oversight will require continuous
    improvement and refinements over a period of performance cycles.

    The FHWA’s revised stewardship and oversight approach will help address OIG’s
    recommendations and continue to provide comprehensive oversight for FAHP.


    OIG Recommendations and FHWA Responses

    Recommendation 1: Establish minimum oversight guidance and procedures that
    must be performed to complete oversight inspections for the current full oversight
    program or any successor programs. The guidance should include provisions to: a)
    develop formal inspection plans, which consider FHWA-wide priorities for project-
    specific risks; b) document evidence of procedures performed; c) formally justify
    when a project activity is excluded from review based upon individual project risks;
    and d) establish the levels of documentation required for each project report and file.




Appendix. Agency Comments
                                                                                       21


    Response: Concur in part. As discussed above, FHWA is discontinuing the use of the
    full oversight process that was the primary subject of the OIG report. The FHWA is
    developing a more data-driven and consistent approach to project level oversight
    across the Agency. Along with the PMI Team’s national oversight role, FHWA is also
    developing a set of inspection review guides to be used by the Divisions that will
    clarify expectations for inspection and documentation requirements as part of the spot
    check program. These inspection review guides will provide consistent guidance and
    procedures to review key project development and delivery areas, such as right of way,
    environment, and contract administration. The results of spot check reviews will be
    evaluated at both the national and local levels to set baselines for determining potential
    project risk areas. Upon completion, these guides will fulfill the intent of this
    recommendation and will be implemented by June 1, 2013.

    Recommendation 2: Require Division Office supervisors to: a) work with the
    Division Office engineers to develop project-specific review plans, which address key
    risks, and b) review the resulting inspection reports.

    Response: Concur in part. The FHWA’s revised stewardship and oversight approach
    as described above will require that Division Offices use a risk-based oversight
    approach to identify program or project areas that require enhanced review or
    inspection. Consistent with the intent of the recommendation, the new risk-based
    oversight approach will also require FHWA units to use the inspection review guides
    as part of the spot check program to address unit-specific project priorities and risks.
    As an added layer of control, completed spot check reports will require documentation
    of the individual who conducted the review, as well as the individual who reviewed
    the report. The spot check program will be implemented by June 1, 2013.

    Recommendation 3: Establish quality control review procedures – based on a select
    sample of inspection reports at either the FHWA Headquarters or Directors of Field
    Services level – to ensure that Division Offices supervisors conduct appropriate
    quality reviews of project-based inspection reports.

    Response: Concur in part. As described in the response to recommendation 1, to
    improve quality control consistency across project reviews, FHWA embedded in the
    new stewardship and oversight approach a spot check program that will be managed
    by the PMI Team to establish a more uniform inspection and review approach across
    the Agency. As part of this approach and for projects identified for increased
    oversight, FHWA is implementing the use of inspection review guides that
    encompasses key project development and delivery areas. Developed in consultation
    with headquarters and the Directors of Field Services, inspection review guides will
    include key areas such as right of way, environment, and contract administration.
    Division Offices will complete reviews on randomly selected projects, and reports will
    be submitted to the PMI Team as they are completed throughout the year. The PMI
    Team will conduct quality assurance reviews for the spot check program annually,
    which will provide quality control reviews consistent with the intent of this
    recommendation. The spot check program will be implemented by June 1, 2013.



Appendix. Agency Comments
                                                                                     22


    Recommendation 4: Require that the Florida, Michigan, and Pennsylvania Division
    Offices sample additional American Recovery and Reinvestment Act (Recovery Act)
    projects to further mitigate other similar instances of noncompliance with Federal
    requirements. In particular, ensure that the types of compliance issues similar to those
    used to project the $125.6 million in unsupported progress payments are mitigated.

    Response: Concur. The FHWA will require that the three Division Offices conduct a
    Federal-aid billing transaction review for FY13. These reviews will enhance financial
    oversight and ensure States have both adequate controls and sufficient supporting
    documentation for FAHP and remaining Recovery Act projects. The review of a
    State’s billing system will provide focused analysis to help the Division Offices
    determine if the State project accounting system is tracking financial data properly,
    accurately, and effectively. This type of review emphasizes an evaluation of internal
    controls designed to reduce the risk of errors and improper payments. A billing
    transaction review looks at established processes and procedures used by the State to
    ensure there are proper controls over authorization and accuracy of data entry.
    Additionally, samples of transactions are tested against source documentation. The
    billing transaction review will be completed by September 30, 2013.

                                          -- -- -- -- --

    The FHWA appreciates the opportunity to respond to the draft report. If you have any
    questions or comments regarding this response, please contact Walter C. Waidelich,
    Jr., Director of Field Services–West, at (801) 955-3530.




Appendix. Agency Comments
